          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           Recovery Act Report – Termination
           of Original Group 7 Award
           Review of PBS’s Limited Scope and
           Small Construction Projects Funded
           by the American Recovery and
           Reinvestment Act of 2009
           Audit Number A090184/P/R/R13006
           April 15, 2013




A090184/P/R/R13006
                    Office of Audits
                    Office of Inspector General
                    U.S. General Services Administration


                                    REPORT ABSTRACT
OBJECTIVES                   Recovery Act Report – Termination of Original Group 7 Award
 Our objectives were to      Review of PBS’s Limited Scope and Small Construction Projects
 determine why the           Funded by the American Recovery and Reinvestment Act of 2009
 Public Buildings Service    Audit Number A090184/P/R/R13006
 (PBS) terminated the        April 15, 2013
 original Group 7 contract
 award and if the            WHAT WE FOUND
 termination was in
                             We identified the following during our audit:
 accordance with the
 Federal Acquisition         Finding 1 – PBS insufficiently documented the contract termination.
 Regulation (FAR),
 General Services            Finding 2 – PBS inappropriately waived the bid guarantee for the
 Administration              contract.
 Acquisition Manual, and     Finding 3 – PBS made an insufficient price reasonableness
 Recovery Act mandates.      determination.
                             WHAT WE RECOMMEND
                             Based on our audit findings we              recommend   the   Regional
                             Administrator, Nation Capital Region:
                             1. Strengthen the document control process for terminating contracts
                                to ensure compliance with the FAR;
                             2. Implement policies, processes, and procedures to ensure that bid
                                guarantee waivers are used only when necessary, that proper
                                approvals are obtained, and that waivers are fully documented; and
                             3. Establish a document control process to ensure contract files fully
                                support the price reasonableness determination.
Real Property Audit          MANAGEMENT COMMENTS
Office (JA-R)                Management agreed with the findings and concurred with the
1800 F Street, NW            recommendations.  Management’s comments are included in
Room 5014                    Appendix B.
Washington, DC 20405
(202) 219-0088




     A090184/P/R/R13006                        i
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            April 15, 2013
 TO:              Julia E. Hudson
                  Regional Administrator
                  National Capital Region (WA)

 FROM:
                  Marisa A. Roinestad
                  Program Director, Real Property Audit Office (JA-R)
 SUBJECT:         Recovery Act Report – Termination of Original Group 7 Award
                  Review of PBS’s Limited Scope and Small Construction Projects
                  Funded by the American Recovery and Reinvestment Act of 2009
                  A090184/P/R/R13006

This report presents the results of our audit of the Termination of the Original Group 7
Award. Our findings and recommendations are summarized in the Report Abstract.
Instructions regarding the audit resolution process can be found in the email that
transmitted this report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

Marisa Roinestad Program Director       marisa.roinestad@gsaig.gov      202-273-7241
Anthony Jones    Auditor-In-Charge      anthony.jones@gsaig.gov         202-273-7242
Kyle Plum        Auditor                kyle.plum@gsaig.gov             202-273-5004

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A090184/P/R/R13006                      ii
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – PBS insufficiently documented the contract termination. ......................... 2
                 Recommendation 1 ................................................................................. 2
                 Management Comments ......................................................................... 3
Finding 2 – PBS inappropriately waived the bid guarantee for the contract ............... 3
                 Recommendation 2 ................................................................................. 4
                 Management Comments ......................................................................... 4
Finding 3 – PBS made an insufficient price reasonableness determination. .............. 4
                 Recommendation 3 ................................................................................. 5
                 Management Comments ......................................................................... 5

Conclusion................................................................................................................ 6

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management Comments .............................................................. B-1
Appendix C – Report Distribution ....................................................................... C-1




     A090184/P/R/R13006                                        iii
Introduction
Under the Recovery Act, Congress appropriated $5.55 billion to the Federal Buildings
Fund with $4.5 billion for measures necessary to convert GSA facilities to high-
performance green buildings. 1 PBS awarded the Group 7 contract on August 17, 2010,
for $4.2 million. 2 The Group 7 contract was for design-build construction services for
energy efficiency improvements. Specifically, the scope of work for the project included
building systems replacement, building tune-ups, and lighting replacement.

PBS terminated the original Group 7 contract on September 17, 2010. The contract
was subsequently re-procured and awarded to a different contractor on September 29,
2010, for $2.8 million. We previously audited this re-procurement and issued an audit
memorandum on July 5, 2011. 3 However, at the time, no documentation regarding the
original procurement or termination was provided to the audit team.

The objective of our audit was to determine why PBS terminated the original Group 7
contract award and if the termination was in accordance with the Federal Acquisition
Regulation (FAR), General Services Administration Acquisition Manual, and Recovery
Act mandates.

See Appendix A – Purpose, Scope, and Methodology for additional details.




1
  As defined by Section 401 of Public Law 110-140.
2                                                                  th
  Group 7 consists of the Lyndon B. Johnson Building and 601 4 Street, NW, Washington Field Office.
The Group 7 contract number is GS-11P-YAC-0044.
3
  The objectives of the previous audit were to determine if the project met the requisite high-performance
green building investment strategy and if PBS awarded the task order in accordance with the Federal
Acquisition Regulation.


A090184/P/R/R13006                              1
Results
Finding 1 – PBS insufficiently documented the contract termination.

PBS insufficiently documented the contract termination, risking dispute with the
contractor regarding $4.2 million. The termination modification did not indicate the
termination type, contain the related FAR clauses, or include information substantiating
the termination.

The no-cost termination modification stated that the contract was terminated “due to the
contractors [sic] failure to meet the requirements set forth in the contract.” There was
no explanation in the contract file as to how the contractor failed to meet the contract
requirements or why a no-cost termination was selected rather than a termination for
default. The contract file indicated that PBS thought it was awarding a firm-fixed price
contract, as solicited, while the awardee thought it was proposing “cost allowances.”4

Additionally, the termination modification did not contain the proper termination clauses.
FAR 49.603-6 requires the inclusion of the following clause in a no-cost settlement
agreement, under a complete termination:

       (a) This supplemental agreement… ‘terminates the contract in its
       entirety’…. (b) The parties agree as follows: The Contractor
       unconditionally waives any charges against the Government because of
       the termination of the contract and… releases it from all obligations under
       the contract or due to its termination.

However, this specific termination language for a no-cost settlement was not included in
this termination modification.

It appears PBS's urgency to obligate Recovery Act funds by September 30, 2010, may
have resulted in the termination. PBS terminated the contract on September 17, 2010.
The project was subsequently re-procured on September 29, 2010. If funds were not
obligated by September 30, 2010, the Recovery Act Program Management Office may
have re-programmed funds to other projects. In order to award a contract by
September 30, 2010, it appears that PBS terminated the contract rather than hold the
contractor responsible for this misunderstanding or further negotiate the difference.

Recommendation 1

We recommend the Regional Administrator, National Capital Region, strengthen the
document control process for terminating contracts to ensure compliance with the FAR.



4
 The contractor proposed “cost allowances” for the amount of work that could be achieved as determined
during the design phase.


A090184/P/R/R13006                            2
Management Comments

In its comments, management agreed with the audit finding and concurred with the
recommendation (See Appendix B).

Finding 2 – PBS inappropriately waived the bid guarantee for the contract.

PBS inappropriately waived the bid guarantee for the contract, leaving the Government
at risk of contractors withdrawing their bids before contract award and the winning
bidder not executing the contract once awarded. The Standard Form 1442, solicitation,
offer, and award document did not require an offer5 guarantee from the contractor. The
chief of the contracting office did not approve this bid guarantee waiver as required by
FAR 28.101 which states:

          The chief of the contracting office may waive the requirement to obtain a
          bid guarantee when a performance bond or a performance and payment
          bond is required if it is determined that a bid guarantee is not in the best
          interest of the Government for a specific acquisition.

Bid guarantees provide the Government with a form of security, assuring that the bidder
will not withdraw its bid within the period specified for acceptance and that the winning
bidder will execute a written contract.

PBS did not provide a justification for not requiring a bid guarantee. Due to the
improper bid guarantee waiver, contractors did not provide bid bonds for the project. In
the event bid guarantees had been required, the contract could have been terminated
for default in accordance with FAR 52.228-1(d)-(e) which prescribes:

          (d) If the successful bidder, upon acceptance of its bid by the Government
          within the period specified for acceptance, fails to execute all contractual
          documents or furnish executed bond(s) within 10 days after the receipt of
          the forms by the bidder, the Contracting Officer may terminate the contract
          for default.
          (e) In the event the contract is terminated for default, the bidder is liable
          for any cost of acquiring the work that exceeds the amount of its bid, and
          the bid guarantee is available to offset the difference.

If the contract was terminated for default, the awardee would have been accountable for
costs over its bid amount, including administrative and in-house costs of a re-
procurement. For this project, PBS could not hold the contractor responsible for these
costs since a bid guarantee was not required. Had PBS not waived the bid guarantee
requirement, the bid bond could have been used under a termination for default if the
contractor failed to meet the requirements of the contract.



5
    Offer guarantees and bid guarantees are synonymous.


A090184/P/R/R13006                             3
 Recommendation 2

 We recommend the Regional Administrator, National Capital Region, implement
 policies, processes, and procedures to ensure that bid guarantee waivers are used only
 when necessary, that proper approvals are obtained, and that waivers are fully
 documented.

 Management Comments

 In its comments, management agreed with the audit finding and concurred with the
 recommendation (See Appendix B).

 Finding 3 – PBS made an insufficient price reasonableness determination.

 The contract file did not contain sufficient data to support the basis of award; therefore
 PBS cannot ensure it paid a fair and reasonable price. The contract file included a
 documented independent government estimate (IGE) 6 and two price negotiation
 memorandums (PNM) 7 citing two different IGEs. Neither PNM IGE was found in the
 contract file. Table 1 compares the documented IGE, contractor’s bid, and the PNM
 IGEs.

                    Table 1 - Comparison of Cost Estimates and Contractor's Bid

 Cost Estimate            Date          Base           Allowances          Options           Total
Documented IGE           2/8/10      $4,470,883             -                 -            $4,470,883
Contractor’s bid        3/24/10                                          Incl. in base
PNM IGE                 4/29/10          -                 -                    -          $5,917,000
PNM IGE                  8/5/10     $4,470,883 8        $200,000          $4,292,000       $8,962,883

 PBS did not provide explanations for the increases between IGEs. Since only the base
 of the August 5, 2010, PNM IGE is documented, a comparison cannot be made
 amongst the IGEs to determine if project elements changed.

 The contractor’s bid included options in its base value while the documented IGE
 estimated only the base. The contractor’s bid exceeded the documented IGE by
 $         . Conversely, IGE amounts quoted in the PNMs were higher than the
 contractor’s total bid. Specifically, the August 5, 2010 PNM IGE exceeds the
 contractor’s bid by $                      . The fact that the bid compared differently
 to all versions of the IGEs (higher and lower) makes it unclear how PBS could have
 used comparison with the IGEs to determine fair and reasonable price.

 6                                                                                            th
   The documented IGE combines separate IGEs for the Lyndon B. Johnson Building and 601 4 Street,
 NW, Washington Field Office.
 7
   PBS conducted two price reasonableness determinations as a result of a change in contracting officer
 before contract award.
 8
   This base value is identical to the February 8, 2010 documented IGE.


 A090184/P/R/R13006                            4
PBS deemed the price fair and reasonable in the August 5, 2010, PNM based on
comparison to its IGE and recently awarded projects. However, the August 5, 2010,
IGE was unsupported and varied significantly from the contractor’s bid. Additionally, the
PNM did not include any details supporting the historical project comparison. These
two conditions precluded comparison to ensure price reasonableness as prescribed by
FAR 15.404-1(b):

      (2) The Government may use various price analysis techniques and
      procedures to ensure fair and reasonable price. Examples of such
      techniques include, but are not limited to, the following:
             (ii) Comparison of the proposed prices to historical prices paid,
             whether by the Government or other than the Government, for the
             same or similar items. This method may be used for commercial
             items including those “of a type” or requiring minor modifications…
             (v) Comparison of proposed prices with independent Government
             cost estimates.

Recommendation 3

We recommend the Regional Administrator, National Capital Region, establish a
document control process to ensure that contract files fully support the price
reasonableness determination.

Management Comments

In its comments, management agreed with the audit finding and concurred with the
recommendation (See Appendix B).




A090184/P/R/R13006                      5
Conclusion
Several deficiencies were identified in the termination of the original Group 7 contract
for design-build services for energy efficiency improvements. PBS needs to: (1)
strengthen controls for terminating contracts in compliance with FAR, (2) ensure that bid
guarantee waivers are used only when necessary, are properly approved, and are fully
documented, and (3) establish controls to ensure that price reasonableness
determinations are fully supported.




A090184/P/R/R13006                      6
Appendix A – Purpose, Scope, and Methodology
Purpose

This audit was performed as part of the Office of Inspector General’s ongoing oversight
of GSA’s implementation of the American Recovery and Reinvestment Act (Recovery
Act).

Scope

The review covered contract administration for the original Group 7 contract (number
GS-11P-10-YAC-0044). Group 7 consists of the Lyndon B. Johnson Building and 601
4th Street, NW, Washington Field Office.

Methodology

To accomplish our objectives, we:

   •   Interviewed PBS contract and project management staff;
   •   Reviewed and analyzed contract and project management files; and
   •   Compared the timeline of the original Group 7 contract termination with the
       subsequent Group 7 contract award.

We conducted the audit between August and October 2012 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

The focus of the review is to determine if GSA is complying with the Federal Acquisition
Regulation, General Services Administration Acquisition Manual, and Recovery Act
mandates governing the administration of the contract. We evaluated internal controls
over contract administration to the extent necessary to answer the review objective.
Related internal control issues are discussed in the context of the review findings.




A090184/P/R/R13006                    A-1
Appendix B – Management Comments




A090184/P/R/R13006    B-1
Appendix B – Management Comments (cont.)




A090184/P/R/R13006     B-2
Appendix C – Report Distribution
Commissioner, PBS (P)

Acting Deputy Commissioner, PBS (PD)

Acting PBS Chief of Staff (PB)

Acting Director, PBS Executive Response (PBA)

Regional Recovery Executive, PBS, National Capital Region (WP)

National Program Office ARRA Executive, PBS (PCB)

Chief of Staff, PBS Office of Construction Programs (PCB)

Regional Administrator, National Capital Region (WA)

Acting Regional Commissioner, PBS, National Capital Region (WP)

Regional Counsel, National Capital Region (LDW)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison, PBS (BCP)

Audit Liaison, PBS, National Capital Region (BCPA)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Deputy Assistant Inspector General for Investigations (JID)

Director, Office of Internal Operations (JI-I)

Investigator, Office of Internal Operations (JI-I)




A090184/P/R/R13006                       C-1
